                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

1)   Case Number: A-07090051
                                                                                11          Page 1 of 1



          We received an allegation that the subject' inappropriately took the complainant's2 data and
          ideas, using them in publications as well as in NSF proposals.3 Our review showed that the
          subject, a co-PI on an awarded NSF proposal4 with the complainant, used some data his award in
          additional future work and NSF proposals, which as a co-PI on the award he could do. Further,
          the subject used data the complainant provided to him in some of his publications, but we learned
          that these data were publicly available and the subject could have acquired these data himself
          without the complainant's assistance.

          This case is closed and no fbrther action will be taken.




 NSF OIG Fonn 2 (1 1/02)
